Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     LIMITED SUPPLIER
SOLICITATION OF PRESCRIBING
PHYSICIANS UNDER MEDICARE
  DMEPOS COMPETITIVE
     BIDDING PROGRAM




                         Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                       December 2012
                       OEI-06-11-00081
EXECUTIVE SUMMARY: LIMITED SUPPLIER SOLICITATION OF PRESCRIBING
PHYSICIANS UNDER THE MEDICARE DMEPOS COMPETITIVE BIDDING PROGRAM
OEI-06-11-00081

WHY WE DID THIS STUDY

Section 302(e) of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(MMA), as amended by section 154(c)(2)(C) of the Medicare Improvements for Patients and Providers
Act of 2008 (MIPPA), directed the Office of Inspector General (OIG) to review supplier solicitation of
physicians under the Medicare Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
(DMEPOS) Competitive Bidding Program. The Round 1 Rebid of the Medicare DMEPOS
Competitive Bidding Program began in nine competitive bidding areas (CBA) on January 1, 2011, and
made significant changes to the amount that Medicare pays for items included in the program and to
the suppliers that Medicare will pay to furnish these items. Although a prescription change in the
product brand or mode of delivery would not typically result in a different Medicare payment amount,
suppliers might solicit physicians to make changes.

HOW WE DID THIS STUDY

To examine supplier solicitation regarding brand and mode of delivery, we surveyed a sample of
294 physicians selected randomly among physicians who prescribed competitive-bid items for
Medicare beneficiaries in the 9 CBAs during the first 6 months of 2011. We asked prescribing
physicians whether suppliers asked them to change the specific brand or mode of delivery of
competitive-bid items, the frequency of such requests, reasons for requests, and whether they approved
the requested changes. We also examined calls related to the Medicare DMEPOS Competitive
Bidding Program received by three hotlines during the same 6-month period.

WHAT WE FOUND

Most physicians were not solicited by DMEPOS suppliers to change the prescribed brand or mode of
delivery for competitive-bid items. Many physicians did not prescribe brand (58 percent) or mode of
delivery (35 percent) for any competitive-bid items and, therefore, had no reason to be solicited by
suppliers. Further, most physicians who prescribed a specific brand or mode of delivery received no
solicitation from suppliers for changes regarding brand (69 percent) or mode of delivery (78 percent).
Within our sample, most physicians who received requests from suppliers described such requests as
rare or occasional and typically approved the changes. Physicians in our sample reported that supplier
reasons for change requests included the supplier’s belief that a different brand or mode of delivery
would better meet patient needs, the supplier’s not carrying the prescribed brand, and requests from
patients. Finally, none of the nearly 37,000 hotline calls related to the Medicare DMEPOS
Competitive Bidding Program involved concerns about supplier solicitation of physicians regarding
brand or mode of delivery.

WHAT WE CONCLUDE

These results from the early months of the program suggest limited supplier solicitation of physicians.
The Medicare DMEPOS Competitive Bidding Program is an important new initiative for controlling
costs and reducing fraud, waste, and abuse in Medicare’s medical equipment benefit program; OIG has
other ongoing work regarding the Medicare DMEPOS Competitive Bidding Program and will continue
to monitor this important initiative.
TABLE OF CONTENTS

Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................9
           Physicians reported limited solicitation by DMEPOS suppliers
           to change the prescribed brand for competitive-bid items ...............9
           Physicians reported limited solicitation by DMEPOS suppliers
           to change the prescribed mode of delivery for competitive-bid
           items ...............................................................................................10
           None of the hotline calls involved supplier solicitation of
           physicians regarding brand or mode of delivery............................ 11
Conclusion .................................................................................................12
Appendixes ................................................................................................13
           A: Estimates and Confidence Intervals .........................................13
           B: Survey Responses from Physicians in Sample.........................15
Acknowledgments......................................................................................18
                   OBJECTIVE
                   To assess the extent to which suppliers solicited physicians regarding the
                   brand or mode of delivery of items covered under the Medicare Durable
                   Medical Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS)
                   Competitive Bidding Program.

                   BACKGROUND
                   Statutory Mandate to Examine Supplier Solicitation
                   Section 302(e) of the Medicare Prescription Drug, Improvement, and
                   Modernization Act of 2003 (MMA), as amended by section 154(c)(2)(C)
                   of the Medicare Improvements for Patients and Providers Act of 2008
                   (MIPPA), directs the Office of Inspector General (OIG) to review the
                   Medicare DMEPOS Competitive Bidding Program that began
                   January 1, 2011. Specifically, OIG is to “determine the extent to which
                   (if any) suppliers of covered items of durable medical equipment that are
                   subject to the competitive acquisition program… are soliciting physicians
                   to prescribe certain brands or modes of delivery of covered items based on
                   profitability.” 1
                   Under the Medicare DMEPOS Competitive Bidding Program, physicians
                   can prescribe a specific brand if they determine that it is needed to avoid
                   an adverse medical outcome for the beneficiary. 2 When a physician
                   prescribes a specific brand, the contract supplier must furnish the item as
                   prescribed, ask the physician to approve a change to an alternative brand,
                   or assist the beneficiary in finding another contract supplier to furnish the
                   prescribed brand. Although a change in the product brand would not
                   result in a different Medicare payment amount, suppliers might still have
                   financial motivation to solicit physicians to change the prescribed brand.
                   For example, if the supplier does not carry the prescribed brand or does
                   not have the brand in stock, the supplier might ask for a change in brand
                   rather than send the patient to a different supplier.
                   If a physician does not prescribe a specific brand on the basis of medical
                   necessity, Medicare allows suppliers to choose which brand to provide


                   1
                     In a letter dated June 30, 2010, Inspector General Daniel Levinson informed the
                   committees of jurisdiction in Congress that by July 1, 2011, OIG would issue an initial
                   report describing our work to date and plans for completing the study. In Congressional
                   Letter—Status of Mandated Review of the Competitive Bidding Program, issued
                   June 29, 2011, OIG described our work to date. This report provides the full results of
                   the mandated review.
                   2
                     Social Security Act (SSA) § 1847(a)(5). Centers for Medicare & Medicaid Services
                   (CMS), Medicare Claims Processing Manual, Pub. 100-04, ch. 36, § 30.4.


Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   1
                   when filling a DMEPOS prescription. 3 In this situation, a supplier would
                   have no need to solicit the prescribing physician to approve a change.
                   For example, if a physician prescribes diabetic test strips for measuring a
                   beneficiary’s blood glucose level but does not prescribe a particular brand,
                   the supplier has discretion to provide any brand of test strips.
                   Physicians may also prescribe specific modes of delivery for two product
                   types covered under the Medicare DMEPOS Competitive Bidding
                   Program: oxygen and enteral nutrients. 4 “Mode of delivery” refers to the
                   specific way in which these products are administered to the patient. For
                   example, patients can receive oxygen through a stationary or portable
                   gaseous oxygen system, liquid oxygen system, or oxygen concentrator.
                   DMEPOS suppliers can request changes regarding the prescribed mode of
                   delivery. 5 Changes in mode of delivery could change the supplier billing
                   code for the product, resulting in a change in the amount that Medicare
                   pays (e.g., Medicare pays different amounts for stationary and portable
                   oxygen supplies).
                   Medicare DMEPOS Competitive Bidding Program
                   To participate in the Medicare DMEPOS Competitive Bidding Program,
                   DMEPOS suppliers competed to become Medicare contract suppliers for
                   selected DMEPOS items within nine specific geographic areas known as
                   competitive bidding areas (CBA). 6 Each CBA includes ZIP Codes in the
                   associated metropolitan statistical area. The nine CBAs are:



                   3
                     Medicare Claims Processing Manual, Chapter 36 § 30.4.
                   4
                     Enteral nutrients are liquid food supplied to the stomach or small intestines through a
                   feeding tube. National Institutes of Health, National Digestive Diseases Information
                   Clearinghouse, Short Bowel Syndrome. Accessed at
                   http://digestive.niddk.nih.gov/ddiseases/pubs/shortbowel/index.aspx on September 12,
                   2012.
                   5
                     Centers for Medicare & Medicaid Services (CMS), Medicare Claims Processing
                   Manual, Pub. 100-04, ch. 36, § 30.4.
                   6
                     For all metropolitan statistical areas not included in a CBA, the Centers for Medicare
                   & Medicaid Services (CMS) continues to administer the Medicare DMEPOS benefit as
                   before. CMS announced on August 19, 2011, that the Medicare DMEPOS Competitive
                   Bidding Program will expand to an additional 91 major metropolitan areas and that new
                   prices in those areas are targeted to go into effect on July 1, 2013. CMS, Medicare to
                   Save Taxpayers and Beneficiaries $28 Billion with an Expanded Competitive Bidding
                   Program—Program To Purchase Durable Medical Equipment Beginning Second Phase.
                   Accessed at http://www.cms.gov/apps/media/press/release.asp?Counter=4064 on
                   September 6, 2012. In addition, CMS will expand the Medicare DMEPOS Competitive
                   Bidding Program for diabetic supplies to include all ZIP Codes in all parts of the United
                   States. CMS, Facts about the Durable Medical Equipment, Prosthetics, Orthotics, and
                   Supplies (DMEPOS) Competitive Bidding Program—Competitive Bidding Areas (CBAs)
                   Round 2 and National Mail-Order Competition. Accessed at
                   http://www.dmecompetitivebid.com/Palmetto/Cbic.Nsf/files/Rd2_Bidding_CBAs0811.p
                   df/$File/Rd2_Bidding_CBAs0811.pdf on November 7, 2012.


Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   2
                   •    Charlotte, Gastonia, and Concord (North Carolina and South
                        Carolina);
                   •    Cincinnati and Middletown (Indiana, Ohio, and Kentucky);
                   •    Cleveland, Elyria, and Mentor (Ohio);
                   •    Dallas, Fort Worth, and Arlington (Texas);
                   •    Kansas City (Kansas and Missouri);
                   •    Miami, Fort Lauderdale, and Pompano Beach (Florida);
                   •    Orlando and Kissimmee (Florida);
                   •    Pittsburgh (Pennsylvania); and
                   •    Riverside, San Bernardino, and Ontario (California). 7
                   CMS and its Competitive Bidding Implementation Contractor (CBIC)
                   evaluated suppliers’ bids based on several criteria, including the bidder’s
                   compliance with quality standards and accreditation requirements,
                   compliance with State licensure requirements, financial stability, estimated
                   capacity to provide DMEPOS products, and bid amount. 8 CMS awarded
                   contracts to the winning bidders, known as “contract suppliers,” in
                   November 2010. 9 Starting on January 1, 2011, beneficiaries with
                   Medicare who obtain items that that were subject to the competitive bid
                   process in the Round 1 Rebid 10 CBAs had to obtain these items from a
                   contract supplier for Medicare to pay, unless an exception applies. Using
                   the bids submitted by suppliers, CMS set a single payment amount for




                   7
                     CMS, Facts about the Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
                   (DMEPOS) Competitive Bidding Program—Competitive Bidding Areas (CBAs).
                   Accessed at
                   http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/Fact_Sheet_Competitive_Bi
                   dding_Areas.pdf/$FIle/Fact_Sheet_Competitive_Bidding_Areas.pdf on June 18, 2012.
                   8
                     CMS, Durable Medical Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS)
                   Bid System (DBidS) Application—Getting Started: Checklist. Accessed at
                   http://www.dmecompetitivebid.com/cbic/cbicrd1.nsf/files/DBidS_Getting_Started_Chec
                   klist.pdf/$FIle/DBidS_Getting_Started_Checklist.pdf on June 6, 2011. See also 42 CFR
                   § 414.414 and SSA § 1847(b)(2).
                   9
                     CMS, Contract Suppliers Selected Under New Medicare Program. Accessed at
                   http://www.cms.gov/apps/media/press/release.asp?Counter=3861 on June 18, 2012.
                   10
                      CMS conducted two “rounds” of bidding in the nine CBAs, Round 1 and the Round 1
                   Rebid. Only the Round 1 Rebid went in to effect. See Round 1 Rebid: Home. Accessed
                   at
                   http://www.dmecompetitivebid.com/palmetto/cbicrd1rebid.nsf/vMasterDID/8TARY3716
                   1 on November 9, 2012.


Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   3
                   each DMEPOS item in each CBA, replacing the prior Medicare fee
                   schedule amount. 11
                   Competitive Bidding Product Categories
                   The 253 DMEPOS items included in the Round 1 Rebid of the Medicare
                   DMEPOS Competitive Bidding Program (hereafter referred to as
                   “competitive-bid items”) are generally high-cost or high-volume products
                   and are grouped into the following 9 product categories, with each product
                   category consisting of multiple related items: 12, 13
                   •    oxygen, oxygen equipment, and supplies;
                   •    standard power wheelchairs, scooters, and related accessories;
                   •    complex rehabilitation power wheelchairs and related accessories
                        (Group 2 only); 14
                   •    mail-order diabetic supplies;
                   •    enteral nutrients, equipment, and supplies;
                   •    continuous positive airway pressure (CPAP) devices, respiratory assist
                        devices, and related supplies and accessories;
                   •    hospital beds and related accessories;
                   •    walkers and related accessories; and
                   •    (in the Miami CBA only) support surfaces (Group 2 mattresses and
                        overlays only). 15

                   11
                      SSA § 1847(b)(5); 42 CFR § 414.416. For a list of single payment amounts, see CMS,
                   Single Payment Amounts Per CBA. Accessed at
                   http://www.dmecompetitivebid.com/Palmetto/cbicrd1rebid.nsf/files/SPA_All_Product_C
                   ategories.pdf/$FIle/SPA_All_Product_Categories.pdf on September 6, 2012.
                   12
                      CMS, General Overview of the Final Rule for Competitive Acquisition for Certain
                   Durable Medical Equipment, Prosthetics, Orthotics, and Supplies. Accessed at
                   https://www.cms.gov/DMEPOSCompetitiveBid/Downloads/DMEPOSRegSumm.pdf on
                   June 10, 2011. See also 72 Fed. Reg. 17992, 18021 (Apr. 10, 2007).
                   13
                      In addition to expanding to more metropolitan areas, CMS also announced changes to
                   the competitive bidding product categories, such as expanding the standard mobility
                   device category to include more products, adding a category for negative pressure wound
                   therapy pumps and related supplies and accessories, and eliminating the complex
                   rehabilitation power wheelchairs category. CMS, Round 2 Items & Services. Accessed
                   at
                   http://www.dmecompetitivebid.com/Palmetto/Cbic.Nsf/files/Rd2_Bidding_ItemsServices
                   0811.pdf/$File/Rd2_Bidding_ItemsServices0811.pdf on July 31, 2012.
                   14
                      CMS classifies power wheelchairs into six groups on the basis of performance
                   characteristics.
                   15
                      Group 2 support surfaces include powered pressure-reducing mattress overlays and
                   replacement mattresses. CMS, DMEPOS Competitive Bidding—Round 1 Rebid:
                   Product Categories and HCPCS Codes. Accessed at
                   http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/HCPCS_Codes.pdf/$FIle/H
                   CPCS_Codes.pdf on June 18, 2012.


Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   4
                   Telephone Hotlines
                   Three telephone hotlines are available for beneficiaries, providers, or other
                   concerned parties to lodge complaints, ask questions, or refer potentially
                   fraudulent Medicare provider practices. The 1-800-Medicare hotline
                   provides general assistance and answers questions about Medicare
                   coverage. 16 If 1-800-Medicare operators are unable to answer a question
                   about the Medicare DMEPOS Competitive Bidding Program, the operator
                   will arrange for the caller to be assisted by the CBIC or by CMS regional
                   office staff. The CBIC Ombudsman’s office is staffed by local
                   ombudsmen with specialized training to assist beneficiaries, suppliers, and
                   health care providers. The CBIC Ombudsman also tracks beneficiary
                   complaints or concerns about specific suppliers and works to resolve those
                   complaints. Lastly, OIG operates the 1-800-HHS-TIPS hotline, which is
                   available to anyone who wants to report a concern about fraud, waste, or
                   abuse in any program run by the Department of Health and Human
                   Services, including the Medicare DMEPOS Competitive Bidding
                   Program.

                   METHODOLOGY
                   Scope
                   This review focuses on the first 6 months of the Round 1 Rebid of the
                   Medicare DMEPOS Competitive Bidding Program (January–June 2011)
                   in the initial nine CBAs. For this time period and these locations, we
                   surveyed a random sample of physicians to learn whether they were
                   solicited by DMEPOS suppliers regarding prescribed brands or modes of
                   delivery of competitive-bid items. We also examined data from three
                   hotlines for the same timeframe and geographic locations to learn about
                   any calls that the hotlines might have received regarding supplier
                   solicitation of physicians regarding brand or mode of delivery under the
                   Medicare DMEPOS Competitive Bidding Program.
                   Sample
                   Using CMS’s Durable Medical Equipment Standard Analytic file, we
                   identified 12,431 physicians who were listed as the prescribing physician
                   on at least 5 claims for competitive-bid items in the nine CBAs during the
                   first 6 months of 2011. From this population, we selected a stratified,
                   random sample of 300 physicians who prescribed competitive-bid items to
                   beneficiaries living in the nine CBAs.



                   16
                    CMS, 1-800-Medicare. Accessed at https://www.cms.gov/1800medicare on
                   October 22, 2012.


Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   5
                   To ensure representation of physicians who prescribed different volumes
                   of competitive-bid items, we stratified the sample by the physician’s
                   volume of claims. The population of physicians in the sample frame
                   consisted of:
                        •    7,747 physicians who prescribed 5–19 items for
                             17,899 beneficiaries (Stratum 1)
                        •    4,117 physicians who prescribed 20–89 items for
                             34,444 beneficiaries (Stratum 2)
                        •    567 physicians who prescribed 90 or more items for
                             18,384 beneficiaries (Stratum 3)
                   We randomly selected 100 physicians for each stratum. After we
                   eliminated 6 ineligible physicians, the sample consisted of
                   294 physicians. 17
                   Survey of Prescribing Physicians
                   We surveyed each physician in the sample to learn whether DMEPOS
                   suppliers had asked them to change prescribed brands or modes of
                   delivery of competitive-bid items during the first 6 months of the
                   Medicare DMEPOS Competitive Bidding Program. Specifically, we
                   asked physicians about:
                        •    whether they prescribed specific brands or modes of delivery of
                             competitive-bid items;
                        •    the types of products that suppliers asked them to change, the
                             frequency of such requests, and the reasons for these requests; and
                        •    whether they approved the requested changes.
                   To distribute the survey, we telephoned physicians’ offices to inform them
                   of the survey and sent a link to a Web-based survey. Most respondents
                   completed the survey online; the other respondents completed the survey
                   by telephone with OIG staff or on paper. We made multiple attempts to
                   follow up with physicians who did not initially respond, including
                   contacting physicians by telephone and mailing hard copies of the survey.
                   We conducted data collection during October 2011 through
                   February 2012.
                   Overall, 214 physicians completed the survey, a 73 percent response rate. 18
                   Many physicians were difficult to reach and their staffs often indicated


                   17
                      We deemed six physicians to be ineligible for the survey due to physician death or
                   billing error or because of law enforcement request. These included two physicians from
                   Stratum 1, three from Stratum 2, and one from Stratum 3.
                   18
                      The weighted response rate, based on responses within each stratum, was 68 percent.


Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   6
                   that they were too busy to complete the survey. Table 1 shows survey
                   response rates.
                   Table 1: Physician Survey Response Rates

                    Stratum: Number of
                                                                                         Survey
                    Competitive-bid                            Sample                                     Response Rate
                                                                                    Respondents
                    Items Prescribed

                    1: 5–19 items                                    98                          63                64%

                    2: 20–89 items                                   97                          72                74%

                    3: 90 or more items                              99                          79                80%

                    Total                                           294                        214                73%*
                   Source: OIG analysis of survey respondents, 2012.
                   *The weighted response rate, based on responses within each stratum, was 68 percent.

                   Analysis of Survey Responses
                   To assess whether DMEPOS suppliers asked physicians to change the
                   prescribed brand or mode of delivery, we analyzed the responses from
                   214 physician surveys. For both brand and mode of delivery, we projected
                   the percentage of physicians who prescribed a specific brand or mode of
                   delivery and physicians who received change requests from DMEPOS
                   suppliers for at least one competitive-bid item. Because of small sample
                   sizes in each stratum, for physicians who reported receiving requests to
                   change brand or mode of delivery, we did not make projections on the
                   basis of their further responses about the requests, such as the type of
                   competitive-bid items involved.
                   Appendix A contains the point estimates and 95-percent confidence
                   intervals based on this analysis, and Appendix B contains survey
                   responses from physicians in the sample.
                   Medicare Hotline Calls
                   To identify other potential problems related to supplier solicitation
                   regarding brand or mode of delivery of items in the Medicare DMEPOS
                   Competitive Bidding Program, we analyzed calls received by
                   1-800-Medicare, 1-800-HHS-TIPS, and the CBIC Ombudsman during the
                   first 6 months of 2011. We first identified the calls that related to the




Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)            7
                   Medicare DMEPOS Competitive Bidding Program. 19 We then determined
                   the extent to which these calls related to supplier solicitation of physicians
                   regarding brand or mode of delivery.
                   Limitations
                   Limitations in the memories of individual physicians could have affected
                   their survey responses and, therefore, our findings. For example, a
                   physician could have reported an instance of supplier solicitation that
                   actually occurred prior to the beginning of the Medicare DMEPOS
                   Competitive Bidding Program, or that was related to noncovered products
                   or patients not covered by Medicare. Although we could not eliminate the
                   chance of receiving such responses, we attempted to avoid potential
                   problems by reminding physicians to focus their responses solely on
                   Medicare patients, items covered under the Medicare DMEPOS
                   Competitive Bidding Program, and their experiences during the first
                   6 months of the program. In addition, because of the relatively low survey
                   response rate, the findings in this report project only to the population
                   represented by the survey respondents. It is possible that nonrespondents
                   had different experiences with supplier solicitation regarding brand and
                   mode of delivery of competitive-bid items than survey respondents, thus
                   potentially biasing our results.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   19
                     For 1-800-Medicare, we included calls categorized under 11 specific customer service
                   “call scripts” related to the Medicare Competitive Bidding Program items, i.e., those for
                   the following category codes: 220.10.205 (oxygen, oxygen equipment, and supplies);
                   220.10.210 (complex rehabilitation power wheelchairs and related accessories);
                   220.10.215 (standard power wheelchairs, scooters, and related accessories); 220.10.220
                   (mail-order diabetic supplies—this single code had three call-script versions: 1.8, 1.9,
                   and 2.0), 220.10.225 (enteral nutrients, equipment, and supplies); 220.10.230 (CPAP
                   devices, respiratory assist devices, and related supplies and accessories); 220.10.235
                   (hospital beds and related accessories); 220.10.245 (walkers and related accessories); and
                   220.10.250 (support surfaces (Group 2 mattresses and overlays in the Miami CBA only)).
                   The 1-800-Medicare data about these calls indicated the number of times that customer
                   service representatives used each call script to address beneficiary inquiries.


Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   8
                   FINDINGS
                   Physicians reported limited solicitation by DMEPOS
                   suppliers to change the prescribed brand for
                   competitive-bid items
                   During the first 6 months of the Medicare DMEPOS Competitive Bidding
                   Program, 58 percent of physicians did not prescribe brand-specific
                   products and therefore had no reason to be solicited by suppliers regarding
                   brand changes. When a physician did not prescribe a specific brand,
                   suppliers could choose which brand of competitive-bid items to provide to
                   beneficiaries.
                   The remaining 42 percent of physicians prescribed a specific brand for at
                   least one competitive-bid item. Of the 94 physicians in our sample who
                   prescribed specific brands, reasons cited for prescribing specific brands
                   included: the patients’ treatment needs (66), the physicians’ prior
                   experience with specific brands (66), and patient requests (64). (See
                   Appendix Table B-1 for physician reasons for prescribing brand, by
                   sample stratum.)
                   Physician prescribing rates varied across the nine product categories.
                   For example, 36 percent of physicians who prescribed diabetic supplies
                   prescribed a specific brand; 25 percent of physicians who prescribed
                   enteral nutrients, equipment, and supplies prescribed a specific brand. 20
                   (See Appendix A for brand prescribing point estimates for all product
                   categories.)
                   About two-thirds of physicians who prescribed specific brands
                   did not receive requests for brand changes from suppliers
                   An estimated 69 percent of physicians who prescribed a specific brand for
                   competitive-bid items did not receive any requests for brand changes; the
                   remaining 31 percent of physicians received a change request for at least
                   one competitive-bid item. In the sample, 33 physicians received a request
                   for brand change, with over half (22 of 33) involving suppliers of
                   diabetic-related items. (See Appendix Table B-2 for requests for brand
                   changes, by product category and sample stratum.) Most physicians in the
                   sample who received a request for brand change (25 of 33) described
                   requests as rare or occasional. (See Appendix Table B-3 for physician
                   responses on frequency of requests for brand changes, by sample stratum.)
                   Although physicians in the sample could not know whether financial
                   motivations influenced suppliers to request brand changes, they described

                   20
                        The 95-percent confidence interval for the 25 percent estimate is 13.6–36.4 percent.


Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)     9
                   the reasons that suppliers indicated for the requests and whether they
                   approved changes. Among the 33 physicians in our sample who received
                   a request for brand change, the physician-reported reasons for change
                   requests included the supplier’s not carrying the prescribed brand (16), the
                   supplier’s belief that a different brand might be better for the patient (12),
                   and the patient’s having asked for a different brand (11). (See Appendix
                   Table B-4 for reasons for supplier requests for brand changes, by sample
                   stratum.) Most physicians in the sample (24 of 33) who received requests
                   for brand changes approved the requested changes. (See Appendix
                   Table B-5 for physician responses to supplier requests for brand changes,
                   by sample stratum.)

                   Physicians reported limited solicitation by DMEPOS
                   suppliers to change the prescribed mode of delivery
                   for competitive-bid items
                   Thirty-five percent of physicians did not prescribe a specific mode of
                   delivery for any competitive-bid items during the first 6 months of the
                   Medicare DMEPOS Competitive Bidding Program and therefore had no
                   reason to be solicited by suppliers regarding mode of delivery. When a
                   physician did not prescribe a specific mode of delivery for competitive-bid
                   items, suppliers could choose the mode of delivery to provide to
                   beneficiaries.
                   The remaining 65 percent of physicians specified mode of delivery on at
                   least one prescription for either of the two competitive-bid items that can
                   have mode of delivery specifications, i.e. (1) oxygen and (2) enteral
                   nutrients, equipment, and supplies. (See Appendix A for point estimates
                   for physician prescribing of a specific mode of delivery for each product
                   category.) Among the 151 physicians in our sample who prescribed a
                   specific mode of delivery, reasons cited included wanting to follow
                   generally accepted standards of care for the prescribed products (119),
                   wanting to gain better patient compliance with treatment (97), and wanting
                   to respond to patient requests (71). (See Appendix Table B-6 for physician
                   reasons for prescribing a specific mode of delivery, by sample stratum.)
                   About three-quarters of physicians who prescribed a specific
                   mode of delivery did not receive change requests from
                   suppliers
                   An estimated 78 percent of physicians who prescribed a specific mode of
                   delivery did not receive change requests; the remaining 22 percent of
                   physicians received a request to change the prescribed mode of delivery
                   for at least one competitive-bid item. In the sample, 32 physicians
                   received such requests, nearly all with regard to oxygen supplies. (See



Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   10
                   Appendix Table B-7 for requests in our sample to change the prescribed
                   mode of delivery, by product category and sample stratum.) All 32
                   physicians described requests to change the prescribed mode of delivery as
                   rare or occasional. (See Appendix Table B-8 for physician responses on
                   frequency of requests to change the prescribed mode of delivery, by
                   sample stratum.)
                   Although physicians in our sample could not know whether financial
                   motivations influenced suppliers to request changes in the prescribed
                   mode of delivery, they described the reasons that suppliers indicated for
                   the requests and whether they approved the changes. Among the
                   32 physicians in our sample who received a request to change the
                   prescribed mode of delivery, the physician-reported reasons for requests
                   included the supplier’s belief that the patient would be better served by a
                   different mode of delivery (26) and the patient’s having requested a
                   different mode of delivery (19). (See Appendix Table B-9 for supplier
                   reasons for requests to change the prescribed mode of delivery, by sample
                   stratum.) Almost all physicians in the sample approved the requested
                   changes (29 of 32 physicians). (See Appendix Table B-10 for physician
                   responses to requests to change the prescribed mode of delivery, by
                   sample stratum.)

                   Hotline call data did not indicate problems with
                   supplier solicitation of physicians regarding brand or
                   modes of delivery
                   During the first 6 months of the Medicare DMEPOS Competitive Bidding
                   Program, Medicare received almost 37,000 calls about competitive
                   bidding, but none indicated supplier solicitation of physicians to change a
                   prescribed brand or mode of delivery. 21 Rather, almost all of these calls
                   involved hotline customer services representatives assisting beneficiaries
                   in finding a supplier to fill their DMEPOS prescriptions under the new
                   program. Although some of the calls related to the brand of DMEPOS
                   products—especially in helping beneficiaries to locate suppliers that
                   carried specific brands of diabetic testing supplies—none referenced
                   supplier solicitation of prescribing physicians.




                   21
                     We reviewed a total of 36,941 calls related to the Medicare DMEPOS Competitive
                   Bidding Program: 36,508 to 1-800-Medicare, 343 to 1-800-HHS-TIPS, and 90 to the
                   CBIC Ombudsman.


Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   11
                   CONCLUSION
                   This report addresses the statutory mandate for OIG to examine the extent
                   to which DMEPOS suppliers solicited physicians regarding either the
                   brand or the mode of delivery of items competitive-bid under the
                   Medicare DMEPOS Competitive Bidding Program. To examine supplier
                   solicitation regarding brand and mode of delivery, we surveyed a sample
                   of 294 physicians selected randomly among physicians who prescribed
                   competitive-bid items for Medicare beneficiaries in the 9 CBAs during the
                   first 6 months of 2011. We also examined calls related to the Medicare
                   DMEPOS Competitive Bidding Program received by three hotlines during
                   the same 6-month period.
                   We found that most physicians were not solicited by DMEPOS suppliers
                   to change the prescribed brand or mode of delivery for competitive-bid
                   items. Many physicians did not prescribe a specific brand (58 percent) or
                   mode of delivery (35 percent) for any competitive-bid items and therefore
                   had no reason to be solicited by suppliers. Further, most physicians who
                   prescribed a specific brand or mode of delivery received no solicitation
                   from suppliers for changes regarding brand (69 percent) or mode of
                   delivery (78 percent). Within our sample, most physicians who received
                   requests from suppliers described such requests as rare or occasional and
                   typically approved the changes. Physicians in our sample reported that
                   supplier reasons for change requests included the supplier’s belief that a
                   change would better meet patient needs, the supplier’s not carrying the
                   prescribed brand, and requests from patients. Finally, none of the nearly
                   37,000 hotline calls involved concerns about supplier solicitation of
                   physicians under the Medicare DMEPOS Competitive Bidding Program.
                   Our study results found limited supplier solicitation and general agreement
                   between physicians and suppliers when solicitation took place, indicating
                   that supplier solicitation does not appear to pose a problem for the
                   Medicare DMEPOS Competitive Bidding Program. However, our results
                   do not rule out the possibility of some supplier solicitation based on profit.
                   Indeed, a small number of physicians in our sample received brand or
                   mode of delivery change requests that they did not approve, presumably
                   because they did not judge the changes to be in the best interest of
                   patients. OIG has other ongoing work regarding the Medicare DMEPOS
                   Competitive Bidding Program and will continue to monitor the program as
                   it expands.




Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   12
                    APPENDIX A
                    Point Estimates and Confidence Intervals
                    We computed estimates and corresponding 95-percent confidence intervals
                    using appropriate statistical methods based on the stratified sample design.

Table A-1: Point Estimates and Confidence Intervals
                                                                                                95-Percent Confidence
                                                                                   Point               Interval
Analysis                                                   Sample Size
                                                                                Estimate
                                                                                            Lower Bound      Upper Bound

Brand Analysis

Physicians who did not prescribe a specific brand                   214            57.8%            49.5%            66.1%

Physicians who prescribed a specific brand                          214            42.2%            33.9%            50.5%
Physicians who prescribed a specific brand and were
                                                                      94           30.9%            19.1%            42.7%
solicited
Physicians who prescribed a specific brand and were not
                                                                      94           69.1%            57.3%            80.9%
solicited
Physician Prescribing by Product Category

Physicians who prescribed diabetic supplies                         214            82.6%            75.2%            88.5%
Physicians who prescribed enteral nutrients, equipment,
                                                                    214            41.7%            33.5%            49.9%
and supplies
Physicians who prescribed continuous positive airway
pressure (CPAP) devices, respiratory assist devices, and            214            64.6%            56.5%            72.7%
related supplies and accessories
Physicians who prescribed support surfaces                          214            32.7%            25.0%            40.4%

Physicians who prescribed standard power wheelchairs                214            66.3%            58.4%            74.3%
Physicians who prescribed oxygen, oxygen equipment,
                                                                    214            84.7%            77.5%            90.3%
and supplies
Physicians who prescribed complex rehabilitation power
                                                                    214            26.1%            18.7%            33.5%
wheelchairs
Physicians who prescribed walkers and related
                                                                    214            85.9%            79.2%            91.0%
accessories
Physicians who prescribed hospital beds and related
                                                                    214            63.7%            55.6%            71.8%
accessories
Physician Prescribing of Brand by Product Category
Physicians who prescribed diabetic supplies, specifying
                                                                    161            36.1%            27.2%            45.0%
brand
Physicians who prescribed enteral nutrients, equipment,
                                                                      87           25.0%            13.6%            36.4%
and supplies, specifying brand
Physicians who prescribed CPAP devices, respiratory
assist devices, and related supplies and accessories,               150            13.5%             7.6%            21.7%
specifying brand
Physicians who prescribed standard power wheelchairs,
                                                                    138             9.4%             4.1%            17.7%
specifying brand
Physicians who prescribed oxygen, oxygen equipment,
                                                                    185             4.6%             1.9%            9.1%
and supplies, specifying brand
Physicians who prescribed walkers and related
                                                                    171             0.7%            0.02%            3.3%
accessories, specifying brand
Physicians who prescribed hospital beds and related
                                                                    131             0.3%         0.0001%             3.4%
accessories, specifying brand




Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)      13
 Table A-1: Point Estimates and Confidence Intervals (continued)

 Mode of Delivery Analysis
                                                                                                                  95-Percent Confidence
                                                                                                  Point                  Interval
                                                                       Sample Size
                                                                                               Estimate
                                                                                                              Lower Bound         Upper Bound

 Physicians who did not prescribe mode of delivery                                214              35.0%               26.9%                43.0%

 Physicians who prescribed a specific mode of delivery                            214              65.0%               57.0%                73.1%
 Physicians who prescribed a specific mode of delivery
                                                                                  151              78.1%               68.3%                86.0%
 and were not solicited
 Physicians who prescribed a specific mode of delivery
                                                                                  151              21.9%               14.0%                31.7%
 and were solicited
 Physicians who prescribed oxygen, oxygen equipment,
                                                                                  185              69.4%               60.9%                78.0%
 and supplies, specifying mode of delivery
 Physicians who prescribed enteral nutrients, equipment,
                                                                                   87              76.4%               63.9%                86.2%
 and supplies, specifying mode of delivery
Source: Office of Inspector General analysis of survey responses from 214 physicians, 2012.
Note: Due to small sample sizes in each stratum, we were unable to project (1) the percentage of physicians who prescribed support surfaces,
specifying brand and (2) the percentage of physicians who prescribed complex rehabilitation power wheelchairs, specifying brand.




 Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)                            14
                   APPENDIX B
                   Survey Responses from Physicians in Sample

                Table B-1: Number of Physicians in Sample, by Reasons for Prescribing
                Brand (n = 94)
                                                                                                 Stratum 3:
                                                      Stratum 1:           Stratum 2:                              Total Number
                Reason                                                                           90 or more
                                                      5–19 items          20–89 items                              of Physicians
                                                                                                      items

                Patient needs                                   15                   20                    31                      66
                Physician’s prior
                                                                19                   21                    26                      66
                experience with brand
                Patient request                                 18                   20                    26                      64
                Brand features                                  12                   18                    25                      55
                Better patient compliance                       11                   14                    26                      51
                Brand reputation                                 9                   16                    19                      44
                Recommended by other
                                                                 9                     4                    6                      19
                health professional
                Recommended by sales
                                                                 1                     3                    0                       4
                representative
                Other                                           10                     9                   11                      30
                Source: Office of Inspector General (OIG) analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one reason category because physicians could select multiple reasons
                for prescribing a product brand.



                Table B-2: Number of Physicians in Sample Who Received Requests for
                Brand Changes, by Product Category (n = 33)
                                                                                                 Stratum 3:
                                                      Stratum 1:           Stratum 2:                              Total Number
                Product Category                                                                 90 or more
                                                      5–19 items          20–89 items                              of Physicians
                                                                                                      items
                Diabetic supplies                                7                     6                    9                      22
                Continuous positive
                airway pressure (CPAP)
                devices, respiratory assist                      0                     2                    4                       6
                devices, and related
                supplies and accessories
                Oxygen, oxygen
                                                                 0                     1                    4                       5
                equipment, and supplies
                Enteral nutrients,
                                                                 1                     0                    1                       2
                equipment, and supplies
                Support surfaces                                 2                     0                    0                       2
                Hospital beds and related
                                                                 0                     0                    1                       1
                accessories
                Standard power
                                                                 0                     0                    1                       1
                wheelchairs
                Walkers and related
                                                                 0                     0                    1                       1
                accessories
                Complex power
                                                                 0                     0                    0                       0
                rehabilitation wheelchairs
                Source: OIG analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one product category because physicians could receive requests for
                brand changes for multiple product categories.




Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)                         15
                Table B-3: Number of Physicians in Sample Who Received Requests for
                Brand Changes, by Frequency of Requests (n = 33)
                                                                                                 Stratum 3:
                                                     Stratum 1:            Stratum 2:                              Total Number
                Frequency of Requests                                                            90 or more
                                                     5–19 items           20–89 items                              of Physicians
                                                                                                      items
                Rarely or occasionally                           7                    7                    11                   25
                Often or very often                              1                    2                     6                       9
                Source: OIG analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one frequency category because physicians could receive requests for
                brand changes for multiple product categories.



                Table B-4: Number of Physicians in Sample Who Received Requests for
                Brand Changes, by Supplier Reasons for Requests (n = 33)
                                                                                                 Stratum 3:
                                                     Stratum 1:            Stratum 2:                              Total Number
                Reason                                                                           90 or more
                                                     5–19 items           20–89 items                              of Physicians
                                                                                                      items
                Supplier did not carry the
                                                                 3                    4                     9                   16
                brand
                Supplier believed patient
                would be better served by                        4                    1                     7                   12
                another brand
                Patient asked supplier for
                                                                 3                    3                     5                   11
                a different brand
                Brand not in stock                               1                    2                     5                       8
                Other                                            4                    4                     4                   12
                No reason given                                  0                    4                     4                       8
                Source: OIG analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one reason category because physicians could select multiple reasons
                for prescribing a specific brand of product.



                Table B-5: Number of Physicians in Sample Who Received Requests for
                Brand Changes, by Physician Response to Requests (n = 33)
                                                                                                 Stratum 3:
                                                     Stratum 1:            Stratum 2:                              Total Number
                Response                                                                         90 or more
                                                     5–19 items           20–89 items                              of Physicians
                                                                                                      items
                Approved requested
                                                                 8                    5                    11                   24
                change
                Did not approve the
                                                                 0                    3                     5                       8
                requested change
                Other                                            2                    1                     2                       5
                Source: OIG analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one response category because physicians could receive requests for
                brand changes for multiple product categories.



                Table B-6: Number of Physicians in Sample, by Reasons for Prescribing
                Mode of Delivery (n = 151)
                                                                                                 Stratum 3:
                                                     Stratum 1:            Stratum 2:                              Total Number
                Reason                                                                           90 or more
                                                     5–19 items           20–89 items                              of Physicians
                                                                                                      items
                Following the standard of
                                                               30                    39                    50                  119
                care
                Better patient compliance                      21                    33                    43                   97
                Patient request                                13                    26                    32                   71
                Other                                            8                    5                    12                   25
                Source: OIG analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one reason category because physicians could select multiple reasons
                for prescribing a mode of delivery.




Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)                      16
                Table B-7: Number of Physicians in Sample Who Received Requests to
                Change Mode of Delivery, by Product Category (n = 32)
                                                                                                 Stratum 3:
                                                      Stratum 1:           Stratum 2:                              Total Number
                Product Category                                                                 90 or more
                                                      5–19 items          20–89 items                              of Physicians
                                                                                                      items
                Oxygen, oxygen
                                                                 9                     9                   13                      31
                equipment, and supplies
                Enteral nutrients,
                                                                 1                     1                    1                       3
                equipment, and supplies
                Source: OIG analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one product category because physicians could receive requests for
                changes in mode of delivery for multiple product categories.



                Table B-8: Number of Physicians in Sample Who Received Requests to
                Change Mode of Delivery, by Frequency of Requests (n = 32)
                                                                                                 Stratum 3:
                                                      Stratum 1:           Stratum 2:                              Total Number
                Response                                                                         90 or more
                                                      5–19 items          20–89 items                              of Physicians
                                                                                                      items
                Rarely or occasionally                           9                   10                    13                      32
                Often or very often                              0                     0                    0                       0
                Source: OIG analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one response category because physicians could receive requests for
                changes in mode of delivery for multiple product categories.



                Table B-9: Number of Physicians in Sample Who Received Requests to
                Change Mode of Delivery, by Suppliers’ Reasons for Requests (n = 32)
                                                                                                 Stratum 3:
                                                      Stratum 1:           Stratum 2:                              Total Number
                Reason                                                                           90 or more
                                                      5–19 items          20–89 items                              of Physicians
                                                                                                      items
                Supplier believed patient
                would be better served by                        7                   10                     9                      26
                another mode of delivery
                Patient asked supplier for
                                                                 6                     5                    8                      19
                different mode of delivery
                Item not in stock                                1                     2                    2                       5
                Other                                            0                     0                    3                       3
                No reason given                                  1                     0                    0                       1
                Source: OIG analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one reason category because physicians could select multiple reasons
                for prescribing a mode of delivery.



                Table B-10: Number of Physicians in Sample Who Received Requests to
                Change Mode of Delivery, by Physician Response to Requests (n = 32)
                                                                                                 Stratum 3:
                                                      Stratum 1:           Stratum 2:                              Total Number
                Response                                                                         90 or more
                                                      5–19 items          20–89 items                              of Physicians
                                                                                                      items
                Made the requested
                                                                 9                   10                    10                      29
                change
                Did not make the
                                                                 0                     0                    1                       1
                requested change
                Other                                            1                     0                    2                       3
                Source: OIG analysis of survey responses from 214 physicians, 2012.
                Note: Physicians are represented in more than one response category because physicians could receive requests for
                changes in mode of delivery for multiple product categories.




Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)                         17
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Kevin Golladay, Regional
                   Inspector General for Evaluation and Inspections in the Dallas regional
                   office; Blaine Collins, Deputy Regional Inspector General; and
                   Ruth Ann Dorrill, Deputy Regional Inspector General.
                   Tom Browning served as the team leader, and Jennifer Gist served as the
                   lead analyst. Other principal Office of Evaluation and Inspections staff
                   from the Dallas regional office who conducted the study include
                   Maria Balderas, Meghan Champney, Michael Gates, and Malinda Hicks.
                   Central office staff who provided support include Kevin Farber,
                   Althea Hosein, Jennifer Jones, Scott Manley, Christine Moritz, and
                   Debra Roush.




Limited Supplier Solicitation of Prescribing Physicians Under DMEPOS Competitive Bidding (OEI-06-11-00081)   18
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
